19-1261
TRENT MICHAEL TAYLOR,
Petitioner,
v.
ROBERT RIOJAS, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
CROSS-IDEOLOGICAL GROUPS DEDICATED TO ENSURING OFFICIAL
ACCOUNTABILITY, RESTORING THE PUBLIC’S TRUST IN LAW
ENFORCEMENT, AND PROMOTING THE RULE OF LAW AS AMICI
CURIAE IN SUPPORT OF PETITIONER contains 5,884 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

/s/ Jay R. Schweikert
Counsel of Record

